<html>
<title> - EVIDENCE OF CURRENT AND ONGOING VOTING DISCRIMINATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    EVIDENCE OF CURRENT AND ONGOING 
                         VOTING DISCRIMINATION

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION,
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2019

                               __________

                           Serial No. 116-45

                               __________

         Printed for the use of the Committee on the Judiciary
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


        Available http://judiciary.house.gov or www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-123                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------        
        
        
        
        
                      
                      COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director

           SUBCOMMITTEE ON THE CONSITITUTION, CIVIL RIGHTS, 
                          AND CIVIL LIBERTIES

                     STEVE COHEN, Tennessee, Chair
JAMIE RASKIN, Maryland
ERIC SWALWELL, California            MIKE JOHNSON, Louisiana,
MARY GAY SCANLON, Pennsylvania         Ranking Member
MADELEINE DEAN, Pennsylvania         LOUIE GOHMERT, Texas
SYLVIA R. GARCIA, Texas              JIM JORDAN, Ohio
VERONICA ESCOBAR, Texas              GUY RESCHENTHALER, Pennsylvania
SHEILA JACKSON LEE, Texas            BEN CLINE, Virginia
                                     KELLY ARMSTRONG, North Dakota

                       James Park, Chief Counsel
                     Paul Taylor, Minority Counsel
                            
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 10, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Steve Cohen, Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     1
The Honorable Mike Johnson, Ranking Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     3
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     5

                               WITNESSES

Vanita Gupta, President and CEO, Leadership Conference on Civil 
  and Human Rights
    Oral Testimony...............................................    12
    Prepared Testimony...........................................    15
Derrick Johnson, President and CEO, NAACP
    Oral Testimony...............................................    23
    Prepared Testimony...........................................    25
Dale Ho, Director, American Civil Liberties Union Voting Rights 
  Project
    Oral Testimony...............................................    39
    Prepared Testimony...........................................    41
J. Christian Adams, President and General Counsel, Public 
  Interest Legal Foundation
    Oral Testimony...............................................    64
    Prepared Testimony...........................................    66
Myrna Perez, Director, Voting Rights and Elections Program, 
  Brennan Center for Justice
    Oral Testimony...............................................    73
    Prepared Testimony...........................................    75
Natalie A. Landreth, Senior Staff Attorney, Native American 
  Rights Fund
    Oral Testimony...............................................    84
    Prepared Testimony...........................................    86

                                APPENDIX

Statement for the record submitted by The Honorable Doug Collins, 
  Ranking Member, Committee on the Judiciary.....................   109
Items for the record submitted by Myrna Perez, Director, Voting 
  Rights and Elections Program, Brennan Center for Justice.......   112
Item for the record submitted by J. Christian Adams, President 
  and General Counsel, Public Interest Legal Foundation..........   112

 
         EVIDENCE OF CURRENT AND ONGOING VOTING DISCRIMINATION

                              ----------                              


                      TUESDAY, SEPTEMBER 10, 2019

                        House of Representatives

            Subcommittee on the Constitution, Civil Rights, 
                          and Civil Liberties

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2141, Rayburn Office Building, Hon. Steve Cohen [chairman 
of the subcommittee] presiding.
    Present: Representatives Cohen, Nadler, Raskin, Scanlon, 
Dean, Garcia, Johnson of Louisiana, Gohmert, Jordan, Cline, and 
Armstrong.
    Staff present: David Greengrass, Senior Counsel; John Doty, 
Senior Advisor; Madeline Strasser, Chief Clerk; Moh Sharma, 
Member Services and Outreach Advisor; Susan Jensen, 
Parliamentarian/Senior Counsel; Julian Gerson, Staff Assistant; 
James Park, Chief Counsel; Keenan Keller, Senior Counsel; and 
Will Emmons, Professional Staff Member.
    Mr. Cohen. We don't have a gavel. The Committee on the 
Constitution, Civil Rights, and Civil Liberties is called to 
order. Without objection, the chair is authorized to declare a 
recess of this subcommittee at any time.
    Welcome, everyone, to today's hearing, a field hearing on 
``Evidence''--well, it is not a field hearing--on ``Evidence of 
Current and Ongoing Voting Discrimination.'' I now recognize 
myself for an opening statement.
    Today's hearing on ``Evidence of Current and Ongoing Voting 
Discrimination'' is part of a series of hearings that the House 
Judiciary Subcommittee on the Constitution, Civil Rights, and 
Civil Liberties will hold over the course of this year to 
assess the current need for a reinvigoration of the 
preclearance requirement of Section 5 of the Voting Rights Act 
of `65 to consider other ways to strengthen that landmark civil 
rights statute.
    I am not sure why we say ``reinvigoration.'' That seems to 
be one of the words we toss around. It is not really a 
reinvigoration. It is a degradation of--Section 4 was cut out, 
so we need to have a Section 4 to activate Section 5. Section 5 
has been made dormant by the Supreme Court saying Section 4 
wasn't adequate. So we need to find a new test to awaken the 
dormant power of Section 5.
    The Voting Rights Act of '65 was widely considered the most 
effective civil rights statute ever enacted by Congress. The 
act was enormously successful in expanding Federal authority to 
protect the fundamental right to vote, and one of its central 
enforcement provisions was its Section 5 preclearance 
provision. The provision required certain jurisdictions with a 
history of voting discrimination against racial and language 
minority groups, predominantly those that tended to be in the 
Deep South, to obtain approval of any changes to their voting 
laws or procedures from the Department of Justice or the U.S. 
District Court for the District of Columbia before those 
changes could take effect.
    The purpose of the preclearance requirement was to ensure 
that jurisdictions that were most likely discriminating against 
minority voters, as shown by a finding of Congress, would bear 
the burden of proving that any changes to the voting laws were 
not discriminatory before such changes could take effect and, 
therefore, not discriminate in fact against people that they 
shouldn't be taking that action against.
    It provided a mechanism to assure that the new voting rules 
and practices of jurisdictions with a history of discrimination 
were fair to all voters, so we had this when we passed the 
Voting Rights Act in '65. There was a list of jurisdictions. It 
was renewed. There was a list of jurisdictions. And then in 
2013, in Shelby v. Holder, our Supreme Court said what we did 
in the past with Mr. Sensenbrenner, who was chairman of the 
committee, and what the House did by a vote of like 390-
something to 33, in the Senate by 98 to nothing, was not 
adequate; that a finding by the Congress of legislative--for 
legislative action was not sufficient, that the court, which 
generally kind of says it bears deference to Congress, was 
going to jump in and put its opinion above Congress.
    So what the preclearance requirements did is it prevented 
potentially discriminatory voting practices from taking before 
they harm minority voters, which was the purpose of these laws, 
so would have found the courts. And in this way preclearance 
proved to be a significant means of protection of the rights of 
minority voters.
    This is why Congress had repeatedly reauthorized the 
preclearance provision, overwhelmingly bipartisan, most 
recently in 2006, and Mr. Sensenbrenner was the chairman of 
this committee at the time and did a great job. It was 390 to 
33 in the House, and the Senate was 98 to nothing.
    Unfortunately, the Supreme Court effectively gutted Section 
5 in 2013. Shelby County v. Holder struck down the coverage 
formula of Section 4 that determined which jurisdictions would 
be subject to the preclearance requirement. As a result, the 
preclearance provision remains dormant unless and until 
Congress adopts this new coverage formula. So we have to have 
hearings to show the court that we have taken information and 
our findings are based on fact.
    We have heard in the four hearings we have held so far this 
year on voting rights, most recently in Memphis, Tennessee, and 
we will further learn in today's hearing, since the Shelby 
decision we have seen formerly covered jurisdictions implement 
numerous discriminatory voting measures. North Carolina, for 
example, passed a sweeping voting suppression law that a 
Federal appeals court ultimately held to be unconstitutional, 
finding that it intentionally targeted African Americans with 
almost surgical precision. And, of course, by doing it after 
they put it into effect, they had their desired effect, which 
was to limit African American voting. If they were under the 
preclearance requirement, the courts could have stopped them 
from doing it before they did, as Mel Brooks would say, that 
``voodoo that they do so well.''
    We will also hear about recent measures to make it 
difficult or impossible for minority voters to exercise their 
right to vote. These measures include polling place closures 
and relocations, the purging of voter rolls that 
disproportionately target racial and ethnic minority voters, 
discriminatory photo ID laws, and restrictions on ex-felon 
voting, all of which are designed to make it harder for African 
Americans and other racial and ethnic minorities to vote.
    Last week in Memphis, we learned about Tennessee's third-
party registration law that would impose draconian penalties on 
groups like the League of Women Voters who work to register new 
voters for minor errors and omissions in registration forms. It 
made it a criminal effort for people to do so.
    Back in May, we learned about a similar law in Texas and 
about many other examples of voting discrimination in that 
State. And we have seen States engage in racial gerrymandering 
designed to dilute the strength of minority voters.
    In the absence of an effective preclearance formula regime, 
there is almost a certainty that these discriminatory measures 
will undermine the voting rights of racial and language 
minority voters and erode our democracy.
    While Section 2 of the Voting Rights Act, which prohibits 
discrimination in voting, remains in effect, it is by itself 
less effective, significantly more cumbersome, and often 
prohibitively expensive to enforce the Voting Rights Act. Most 
importantly, plaintiffs cannot invoke Section 2 until after 
alleged harm has taken place. Requiring discrimination victims 
to rely solely on such a remedy effectively neuters the act. 
The onus, therefore, is on Congress to create a new coverage 
formula to reinvigorate the act's most important enforcement 
mechanism: its preclearance requirement.
    I thank our witnesses and our members for being here today. 
I look forward to a fruitful discussion. And I would now like 
to recognize the ranking member, Mr. Johnson, for his opening 
statement.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman, and I 
appreciate you all for being here. As the minority party on 
this committee, I think there is a couple of things that we 
just want to say at the outset as we begin the hearing.
    First of all, let's be clear about this. We all agree that 
discriminatory treatment in voting based on race or sex is 
abhorrent. It is prohibited by the Constitution, as it should 
be, and it is prohibited by Federal statute, as it should be. 
But, too often, complaints of discrimination in voting have 
nothing to do with discriminatory treatment. Instead, rules 
entirely neutral on their face are sometimes claimed to be 
discriminatory simply because they have a disparate impact on 
one group or another.
    Disparate impact claims are a form of identity politics, 
and they contradict, for example, Dr. Martin Luther King Jr.'s 
admonition to focus on consciences rather than racial groups. 
Dr. King said famously in his ``I Have a Dream'' speech: ``When 
the architects of our Republic wrote the magnificent words of 
the Constitution and the Declaration of Independence, they were 
signing a promissory note to which every American was to fall 
heir. This note was a promise that all men, yes, black men as 
well as white men, would be guaranteed the inalienable rights 
to life, liberty, and the pursuit of happiness.''
    Dr. King said it well. That promissory note promised life, 
liberty, and the pursuit of happiness, not equality of 
outcomes. Insofar as proponents of changes in the law base them 
on enforcement of equal outcomes instead of equal opportunity, 
we just believe genuinely that they pervert the language of our 
founding documents and they fail to understand the import of 
Dr. King's words.
    Disparate impacts are not proof of discrimination. Indeed, 
they are statistically inevitable. As Thomas Sowell has 
explained, if several criteria need to be met for any given 
outcome--and this can apply to voting requirements as well--
then small variations in any group's odds of meeting any of 
those criteria will produce different outcomes for the group 
generally.
    The problem with disparate impact theory in the voting 
rights context is that disparate impact is often used to 
falsely impute racism or discrimination. But there are 
thousands of reasonable reasons a neutral voting rule might 
have a disparate impact, reasons that have nothing whatsoever 
to do with discrimination.
    Take the example of the Department of Justice's letter 
declining to preclear South Carolina's voter ID law under the 
Voting Rights Act of 2011--in 2011. The Department claimed in 
the letter that, ``Minority registered voters were nearly 20 
percent more likely to be effectively disenfranchised'' by the 
law because they lacked a driver's license. But the difference 
between white and African American holders of a driver's 
license was only 1.6 percent. The Justice Department used the 
20-percent figure because, while the State's data showed that 
8.4 percent of white registered voters lacked any form of DMV-
issued ID as compared to 10 percent of nonwhite registered 
voters, the number 10 is 20 percent larger than the number 8.4. 
It is true mathematically that 10 is 20 percent larger than 
8.4--actually, it is 19 percent larger, but the Justice 
Department rounded up--but it clearly distorts the reported 
difference in driver's license rates, and it was used to 
falsely declare the South Carolina law as objectionable.
    What other factors might then explain differences in 
outcomes among demographic groups? Well, let's give another 
example. Data shows that younger people across racial groups 
tend to be the least likely to have driver's licenses. 
Consequently, if African Americans have proportionately more 
young people in their demographic group, there will be a 
disproportionate number of individuals in that ethnic group 
without driver's licenses, however slight, as is indeed the 
case. As the facts follow, this is due to demographics and not 
discrimination.
    The disparate impact approach to civil rights and the 
assumption that different outcomes are the result of prejudice 
is fundamentally unsound for the same reason social scientists 
are trained that correlation does not imply causation. In other 
words, there can be all sorts of correlations between one event 
and another, and that doesn't answer the question as to why 
that correlation exists.
    My point again is not that voting discrimination has 
disappeared forever. We know it hasn't. My point is only that 
disparate impacts can't be meaningfully used to prove voting 
discrimination.
    Regarding discriminatory treatment in voting that is based 
on race, Section 3 of the Voting Rights Act, which is permanent 
Federal statutory law, remains in place and in full effect. 
Just a couple years ago, for example, U.S. District Court Judge 
Lee Rosenthal issued an opinion in a redistricting case that 
required the city of Pasadena, Texas, to be monitored by the 
Justice Department because it had intentionally changed its 
city council districts to decrease Hispanic influence. The 
city, which the court ruled ``has a long history of 
discrimination against minorities,'' was required to have their 
future voting rules changes precleared by the Department of 
Justice for the next 6 years during which time the Federal 
judge retains jurisdiction to review before enforcement any 
change to the election map or plan that was in effect in 
Pasadena on December 1, 2013.
    A change to the city's election plan can be enforced 
without review by the judge only if it has been submitted to 
the U.S. Attorney General and the Department of Justice has not 
objected within 60 days.
    Look, I support Section 3 and its application to proven 
instances of discriminatory treatment in voting, and I look 
forward to hearing from all of our witnesses here today.
    I yield back.
    Mr. Cohen. Thank you, Mr. Johnson.
    I now recognize the chairman of the full Judiciary 
Committee, the gentleman from much of New York--Manhattan, the 
East Side----
    Chairman Nadler. West Side.
    Mr. Cohen. West Side. West Side, East Side, all about the 
town--Mr. Nadler for his opening statement.
    Chairman Nadler. Thank you, Mr. Chairman, and let me 
express my appreciation to you for hosting us at the field 
hearing on voting rights in Memphis last week.
    Since the Supreme Court's disastrous 2013 decision in 
Shelby County v. Holder, which effectively gutted the most 
critical enforcement provision of the Voting Rights Act of 
1965, the preclearance requirement, we have seen a troubling 
trend. States and localities--and, in particular, those that 
were formerly subject to the preclearance requirement--have 
enacted or engaged in various voter suppression tactics, such 
as burdensome proof of citizenship laws, polling place 
closures, purges of voter rolls, significant scale-backs to 
early voting periods, restrictions on absentee ballots, and 
laws that make it difficult to restore the voting rights of 
formerly incarcerated individuals. These kinds of voting 
restrictions have a disproportionate negative impact on racial 
and language minority voters, and contrary to what we just 
heard, disparate impact is very, very much a very useful 
evidentiary tool.
    In the most recent elections in November 2018, voters 
across the country experienced various barriers to voting 
because of State and local laws and circumstances that made it 
harder, even impossible to vote. For example, we heard last 
week during our field hearing in Memphis that in Georgia, under 
that State's exact match law, 53,000 voter registrants, 70 
percent of whom are African American, by pure happenstance, 
were placed in pending status and at risk of not being counted 
by the Secretary of State, who was also the Republican nominee 
for Governor in that same election, because of minor 
misspellings on their registration forms.
    A Federal court ultimately put a stop to this practice 
because of the ``differential treatment inflicted on a group of 
individuals who are predominantly minorities'' but had acted 
just 4 days before the election and only after a prolonged 
period of confusion.
    Section 5 of the Voting Rights Act, or VRA, contains the 
preclearance requirement which requires certain jurisdictions 
with a history of discrimination to submit any proposed changes 
to their voting laws and practices to the Department of Justice 
for prior approval to ensure that they are not discriminatory. 
To understand why the preclearance requirement was so central 
to enforcing the VRA, it is worth remembering why it was 
enacted in the first place.
    Before the VRA, many States and localities passed voter 
suppression laws, secure in the knowledge that it could take 
many years before the laws could be successfully challenged in 
court, if at all. As soon as one law was overturned, another 
would be enacted, essentially setting up a discriminatory game 
of Whac-A-Mole. Section 5's preclearance provision broke this 
legal logjam and helped to stop this discriminatory practice.
    Indeed, the success of the Voting Rights Act with its 
effective preclearance requirement was apparent almost 
immediately after the law went into effect. For instance, 
registration of African American voters and the number of 
African Americans holding elective office both rose 
dramatically in the few years after enactment of Section 5.
    These successes could not have happened without vigorous 
enforcement of the Voting Rights Act, and particularly of its 
preclearance provision. The Shelby County decision, however, 
struck down as unconstitutional the VRA's coverage formula, 
which determined which jurisdictions would be subject to the 
preclearance requirement, effectively suspending the operation 
of the preclearance requirement itself. And in its absence, the 
game of Whac-A-Mole has returned without a vengeance.
    Not surprisingly, within 24 hours of the Shelby County 
decision, Texas Attorney General and North Carolina's General 
Assembly announced they would reinstitute draconian voter ID 
laws. Federal courts ultimately held both laws to be 
intentionally racially discriminatory--not disparate impact; 
intentionally racially discriminatory. But during the years 
between their enactment and the courts' final decisions, States 
and localities held many elections while the discriminatory 
laws remained in place and many people were denied their 
rightful right to vote.
    In short, before the racial discrimination could be 
stopped, the damage had already been done. At least 21 other 
States have also enacted newly restrictive statewide voter laws 
since the Shelby County decision.
    Restoring the vitality of the Voting Rights Act is of 
critical importance. In 2006, when I was the ranking member of 
this subcommittee, we undertook an exhaustive process to build 
a record that demonstrated unequivocally the need to 
reauthorize the Voting Rights Act, provisions of which like the 
preclearance requirement and the coverage formula that 
undergirded it were expiring. At the time we found that many 
covered jurisdictions were still facilitating ongoing 
discrimination. For instance, these States and the subdivisions 
continue to engage in racially selective practices such as 
relocating polling places for African American voters, and in 
the case of localities annexing certain wards simply to satisfy 
white suburban voters who sought to circumvent the ability of 
African Americans to run for elective office in their cities.
    While it is true that those seeking to enforce the VRA can 
still pursue after-the-fact legal remedies even without 
preclearance, time and experience have proven that such an 
approach takes far longer and is far more expensive than having 
an effective preclearance regime. And once a vote has been 
denied, it cannot be recast. The damage to our democracy is 
permanent. That is why I hope that members on both sides of the 
aisle and in both chambers of Congress will come together and 
pass legislation to restore the VRA to its full vitality.
    Today's hearing will provide an additional opportunity to 
renew our understanding of the importance of the Voting Rights 
Act, and, in particular, of its preclearance provisions, and to 
support our efforts to craft a legislative solution.
    I look forward to hearing from our distinguished witnesses, 
to hear about their findings of ongoing voting discrimination 
by States and localities.
    I yield back the balance of my time.
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. Collins, the ranking member, has a statement. It will 
be introduced for the record. He is not present.
    Mr. Johnson of Louisiana. If he shows up, he wants to 
deliver it.
    [The statement of Mr. Collins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. We welcome our witnesses and thank them for 
participating in today's hearing. Your written statements will 
be entered into the record in their entirety. I ask each of you 
to summarize your statement for 5 minutes, to stay within the 
time. There is a timing light on your table. When the light 
switches from green to yellow, it means you have got 1 minute 
left, just like a traffic light. When it turns red, trouble. 
Five minutes expired.
    I remind every witness that your statements, written or 
oral, made to the subcommittee are subject to penalties of 
perjury under 18 U.S.C. 1001, which may result or could result 
in the imposition of a fine or imprisonment up to 5 years, or 
both--a fine as well. But that will not likely happen.
    Our first witness is Ms. Vanita Gupta. Ms. Gupta is the 
president and chief executive officer of the Leadership 
Conference on Civil and Human Rights. Previously, she served as 
Principal Deputy Assistant Attorney General and as Acting 
Assistant Attorney General and the head of the Civil Rights 
Division at the U.S. Department of Justice during the Obama 
administration. Ms. Gupta received her law degree from New York 
University School of Law, which is in Mr. Nadler's district, 
and received her undergraduate degree magna cum laude from Yale 
University, which, with a Sharpie, could be in Mr. Nadler's 
district, too. [Laughter.]
    Mr. Cohen. Ms. Gupta, you are recognized for 5 minutes.

   STATEMENTS OF VANITA GUPTA, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, THE LEADERSHIP CONFERENCE ON CIVIL AND HUMAN RIGHTS; 
    DERRICK JOHNSON, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
  NATIONAL ASSOCIATION FOR THE ADVANCEMENT OF COLORED PEOPLE 
  (NAACP); DALE HO, DIRECTOR, VOTING RIGHTS PROJECT, AMERICAN 
   CIVIL LIBERTIES UNION; J. CHRISTIAN ADAMS, PRESIDENT AND 
GENERAL COUNSEL, PUBLIC INTEREST LEGAL FOUNDATION; MYRNA PEREZ, 
 DIRECTOR, VOTING RIGHTS AND ELECTIONS PROGRAM, BRENNAN CENTER 
FOR JUSTICE, NEW YORK UNIVERSITY SCHOOL OF LAW; AND NATALIE A. 
  LANDRETH, SENIOR STAFF ATTORNEY, NATIVE AMERICAN RIGHTS FUND

                   STATEMENT OF VANITA GUPTA

    Ms. Gupta. Chairman Nadler, Chairman Cohen, Ranking Member 
Johnson, and members of the subcommittee, thank you for the 
opportunity to testify today. And thank you, Chairman Cohen, 
for your leadership and calling this hearing to restore the 
Voting Rights Act.
    The VRA is considered one of the most successful pieces of 
civil rights legislation in our history. Not long ago, just in 
2006, this very body reauthorized the VRA with sweeping 
bipartisan support. But in 2013, five Justices of the Supreme 
Court gutted the VRA's most powerful provision: the Section 5 
preclearance system.
    Section 5 enabled the Federal Government to block proposed 
discriminatory voting restrictions in places with the most 
pervasive histories of discrimination. It also ensured that 
changes to voting rules were public, transparent, and evaluated 
to protect voters against discrimination based on race and 
language.
    When I served in the Justice Department, we relied on 
Section 2 of the VRA to help mitigate the damage done by the 
Shelby County decision. We challenged discriminatory laws 
passed in North Carolina and Texas in the immediate aftermath 
of the decision, and we were successful. Courts found 
intentional discrimination and have found intentional 
discrimination in at least nine Federal court cases since the 
Shelby County decision.
    But Section 2 litigation can take years. While litigation 
is pending, elections are actually taking place, and millions 
of voters can be effectively disenfranchised with no remedy 
when they are voting pursuant to laws that are later found to 
have been enacted through intentional discrimination. So the 
reality is Section 2 just simply is no substitute for the need 
to restore the Section 5 preclearance provision.
    Restoring preclearance is all the more important under an 
administration that refuses to challenge discriminatory voting 
measures. Not a single case has been opened, including barriers 
to voter registration, restrictive voter ID requirements, and 
polling place closures, which I want to focus on today.
    Polling place closures and consolidation can be a 
pernicious tactic for disenfranchising voters, particularly 
voters of color, older voters, rural voters, and voters with 
disabilities, and since the Shelby decision jurisdictions are 
closing polling places at an alarming speed. This morning, the 
Leadership Conference Education Fund released ``Democracy 
Diverted,'' a ground-breaking report that analyzes polling 
places in 757 counties that had once been covered by Section 5. 
We found that 1,688 polling places were closed between 2012 and 
2018.
    The report also analyzes polling place reductions in the 
years between the 2014 and 2018 midterm elections. We found 
1,173 fewer polling places in 2018 despite a significant 
increase in voter turnout. Overall, Texas alone closed 750 
polling places; Arizona closed 320; Georgia, 214; Louisiana, 
Mississippi, North Carolina, and Alabama trail behind them.
    This crisis also extends beyond States formerly covered by 
Section 5. Our campaign, All Voting Is Local, identified 
similar trends in Ohio. Between 2016 and 2018, Cuyahoga County, 
which is home to Cleveland, eliminated 41 polling locations, 
the bulk of which happened in majority black wards.
    Now, of course, there may be valid reasons for polling 
place closures, but it is important to recognize that these 
closures are taking place amidst a larger constellation of 
efforts to prevent people of color from voting. And without 
preclearance, States are under no obligation to evaluate the 
discriminatory impacts and potential harms of polling place 
closures.
    As our report found, closures often mean long lines at 
polling places, transportation hurdles, and mass confusion 
about where eligible voters may cast their ballots. For many 
people, these burdens may make it harder and sometimes 
impossible to vote. Some jurisdictions cite voter 
modernization, including vote by mail participation, as a 
justification for poll closures. And yet the move to mail-in 
ballots is far from racially neutral. In Arizona, All Voting Is 
Local found that 96 percent of non-Native Americans live on a 
U.S. Postal Service carrier route while only 26 percent of 
Native Americans live on a U.S. Postal Service carrier route.
    Before the Shelby decision, scrutiny of voting changes 
under Section 5 ensured that polling place reductions did not 
discriminate against voters of color, and this critical 
protection no longer exists, and the consequences on voter 
access are devastating. This is why the Leadership Conference 
recommended that the subcommittee and urges the subcommittee 
pass H.R. 4 to restore the Voting Rights Act based on current 
conditions today.
    While there are justifiable reasons for closing polling 
places, the sheer scale of closures we identified since Shelby 
coupled with other stark efforts to deny voting rights to 
people of color demand our response, and our coalition is 
committed to protecting and expanding the franchise, and we 
look forward to working with you until the day these reforms 
are signed into law.
    Thank you.
    [The statement of Ms. Gupta follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you very much, Ms. Gupta.
    Mr. Derrick Johnson is our next witness. He is the 
president and chief executive officer of the NAACP, a position 
he has held since October 2017. He had previously served as 
vice chairman of the NAACP National Board of Directors and as 
president of the NAACP Mississippi State Conference. Mr. 
Johnson received his J.D. from the South Texas College of Law 
and his undergraduate degree from Tougaloo College in Jackson, 
Mississippi.
    Mr. Johnson, you come from my part of the world. Welcome.

                  STATEMENT OF DERRICK JOHNSON

    Mr. Johnson. Good morning, Chairman Cohen, Chairman Nadler, 
Ranking Member Johnson, and members of the subcommittee. Thank 
you for inviting me to testify. For background, I have spent 
more than two decades in Mississippi, which has been front and 
center in the fight for voting rights.
    Allow me to get to the point: Our democracy is in crisis. 
There is a frontal assault on the right of people of color to 
fully participate. We are 6 years, 2 months, 16 days until the 
Shelby County ruling. This was the worst attack on 
participatory democracy in modern history. The ink was not even 
dry before the floodgates of voter suppression opened.
    Chief Justice John Roberts was dead wrong when he said in 
Shelby County that our county--our country has changed. Just 
take a look around. It most certainly has not. Voter 
suppression has become rampant. Instead of asking where is it 
occurring, we should ask, where is it not? And Congress has a 
constitutional duty to act. My testimony lays out the problems 
we face around the country.
    I would like to make five points here.
    First, the assault on democracy is conducted by States and 
local jurisdictions. Much attention is focused on statewide 
efforts to suppress the vote, but it can happen in every 
community.
    Secondly, today's disenfranchisement takes many forms. It 
is adaptive and it is pervasive.
    These are just a few stringent voter ID requirements like 
North Carolina's which we successfully challenged and which a 
court found targeted African Americans with surgical precision: 
purges of voter rolls like we are seeing in Ohio right now; 
massive closures of polling places in communities of color; 
shortened voting periods and elimination of Sunday voting and 
``Souls to the Polls'''; measures making it criminal for groups 
to register voters, like the ones we recently had to challenge 
in Tennessee.
    Thirdly, there is no defense. Voter suppression is often 
done in the name of combating voter fraud. But let's be clear. 
This is not a real problem. Reports of voter fraud is about as 
common as reports of alien abduction. Even Trump had to disband 
his voting commission because fraud does not exist.
    Fourthly, while voting discrimination was well documented 
in States subject to preclearance under the Voting Rights Act, 
it has spread like a cancer to other States never subject to 
coverage. The tragic fact is that no community is immune. 
Everyone everywhere must remain vigilant.
    Finally, we cannot address this alone. My testimony entered 
into the record discusses the vast efforts of our legal 
department in conjunction with our State conferences and other 
legal organizations on the ground to combat voter suppression. 
But here is the situation: Shelby County eliminated the 
preclearance requirement, and Trump's Justice Department is 
missing in action on any voting rights enforcements. Our 
branches and members are asked to what used to be the job of 
the Federal Government: protect the right to vote.
    To be clear, we are fighting back wherever and whenever we 
can. But this is not sustainable. Congress must step up to 
combat this Nation's epidemic. Congress must pass Voting Rights 
Advancement Act. Make no mistake: Congress has simple evidence 
to restore the Voting Rights Act to its full strength. Given 
the daily experiences of our community with voter suppression 
in the lead-up to and on election day, no one can deny the 
strong record that supports immediate passage. Congress must 
also pass For the People Act. Voting must be simplified. Access 
to ballots must be expanded. This bill would make it easier to 
cast a vote and make sure that that vote is counted.
    Finally, Congress must pass Securing America's Federal 
Election Act. The SAFE Act would help our elections secure and 
free from foreign intervention, interference that 
disproportionately targeted African Americans. Robert Mueller 
warned this committee about Russian interference in our 
election. He said, ``They are doing it as we sit here.'' We 
must defend our democracy, period.
    This year, the NAACP celebrated our 110th anniversary. We 
have never wavered from demanding an inclusive, secure 
democracy. It is now time for Congress to make protecting the 
franchise the highest priority.
    In Mississippi, what I experienced over the last 20 years 
is what I am watching across this country. If we do not stand 
up to protect democracy and make it work today, who will? And 
how can we ever have a true representative Government?
    Thank you for allowing me to testify. I welcome any 
questions.
    [The statement of Mr. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Mr. Johnson, and just 
parenthetically, I will mention that in Memphis, the location 
that houses the Election Commission downtown was dedicated 
yesterday as the James Meredith Building, in honor of his 
integrating Ole Miss and fighting for voting rights.
    Mr. Dale Ho is director of the Voting Rights Project at the 
American Civil Liberties Union. In that role, he supervises the 
ACLU's voting rights litigation and advocacy work nationwide. 
He currently has active cases in dozens of States around the 
country. He has testified on election law issues before this 
Congress and State legislatures. He is also an adjunct clinical 
professor of law at the New York University School of Law, 
received his J.D. from Yale Law School and his undergraduate 
degree from Princeton.
    Mr. Ho, you are recognized for 5 minutes. Thank you.

                      STATEMENT OF DALE HO

    Mr. Ho. Chairman Cohen, Chairman Nadler, Ranking Member 
Johnson, and members of the subcommittee, thank you very much 
for the opportunity to testify today. My name is Dale Ho, and I 
am the director of the ACLU Voting Rights Project.
    Justice Ruth Bader Ginsburg famously warned that the 
Supreme Court's decision striking down a part of the Voting 
Rights Act in Shelby County v. Holder was like ``throwing away 
your umbrella in a rainstorm.'' And sure enough, after the 
decision, a downpour came, with a wave of discriminatory voting 
laws.
    The ACLU has been on the front lines. We have opened more 
than 60 new voting rights investigations and cases since the 
decision. Some of our recent and ongoing cases include: 
Department of Commerce v. State of New York, a case that I 
argued before the Supreme Court earlier this year, successfully 
challenging the administration's attempt to add a citizenship 
question to the 2020 census; NAACP v. McCrory, where, along 
with the NAACP and others, we successfully challenged the 
sweeping North Carolina bill that sought to eliminate means of 
participation used by more than 1 million voters in the 2012 
Presidential election; and Gruver v. Barton, where, working 
with the Brennan Center and others, we are challenging a 
Florida law that denies the right to vote to returning citizens 
with past felony convictions based solely on their inability to 
pay outstanding costs, fines, fees, and restitution.
    My testimony today will focus on current conditions with 
respect to racial discrimination in voting and, in particular, 
on recent litigation under Section 2 of the Voting Rights Act. 
As detailed in my written statement, I think four points stand 
out.
    First, recent litigation under Section 2 of the VRA 
demonstrates the need for the Voting Rights Advancement Act. 
While the current administration has not filed a single case 
under the VRA, private litigants have won more than two dozen 
Section 2 cases since Shelby County was decided. That volume of 
successful Section 2 litigation illustrates the continuing 
problem of racial discrimination in voting today.
    Second, despite those successes, we currently lack the 
tools necessary to stop discriminatory changes to voting laws 
before they taint an election. Discriminatory laws that we have 
ultimately succeeded in blocking have remained in effect for 
months or even years while litigation has proceeded, time in 
which elections have been held and Government officials were 
elected.
    The North Carolina case that you have heard so much about 
today is illustrative. The law that we challenged eliminated 1 
week of early voting in which 900,000 people had voted in 2012; 
same-day registration, which nearly 100,000 voters had used in 
2012; and pre-registration, which 50,000 voters had used before 
that election. The law also banned the use of many forms of 
Government-issued photo ID for voting purposes, including 
student ID cards, municipal employee ID cards, and public 
assistance IDs. As Chairman Cohen and Mr. Johnson noted, the 
Fourth Circuit found that this law targeted African American 
voters ``with almost surgical precision'' and found it 
unconstitutional.
    But that case took $5.9 million, including expert fees and 
attorney time, and 34 months to litigate. In the interim, the 
2014 general election took place, and 190 Federal and State 
government officials were elected under what was later 
determined to be an unconstitutional regime. That law has been 
struck down, but that election cannot be rerun. There is no way 
now to compensate the voters of North Carolina or our democracy 
itself for that gross injustice.
    And that is just one example. My written testimony details 
ten Section 2 cases that the ACLU has litigated since Shelby 
County in which we ultimately obtained favorable outcomes for 
our clients, but only after a dozen elections were held and 350 
Federal, State, and local officials were elected under 
discriminatory laws.
    The VRAA would address this problem in two ways: with a new 
preclearance provision based on a rolling formula, accounting 
for recent voting rights violations; and a clarified standard 
for preliminary injunctions in Section 2 cases. Both would help 
prevent discriminatory laws from taking effect before an 
election.
    Third, overall the bulk of Section 2 litigation happens at 
the local level where changes to voting laws are more difficult 
to monitor and highlights the need for the VRA's transparency 
and notice requirements.
    Fourth, and finally, a handful of States--of formerly 
covered States under the Section 5 preclearance regime account 
for more than half of successful Section 2 cases since Shelby 
County was decided, which indicates that voting discrimination 
remains concentrated in certain areas and that particularly 
strong protections are justified in those places.
    Congress has a duty to take strong action to fulfill the 
promise of the Reconstruction Amendments, that all Americans 
should be free to participate in our democracy on equal terms, 
free from racial discrimination.
    Thank you. I look forward to answering any questions you 
have today.
    [The statement of Mr. Ho follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Mr. Ho.
    Our next witness is Mr. J. Christian Adams, who has 
appeared before us previously, president and general counsel of 
Public Interest Legal Foundation. From 2005 to 2010, he worked 
in the Voting Section at the United States Department of 
Justice. Prior to his time at the Justice Department, he served 
as general counsel to the South Carolina Secretary of State. He 
received his law degree from the University of South Carolina 
School of Law.
    Mr. Adams, you are recognized for 5 minutes.

                STATEMENT OF J. CHRISTIAN ADAMS

    Mr. Adams. Thank you very much, Chairman Nadler, Chairman 
Cohen, Ranking Member Johnson. I am president and general 
counsel of the Public Interest Legal Foundation. We are 
dedicated to preserving election integrity and the 
constitutional decentralization of power so that States may 
administer their own elections.
    I am presenting evidence today of two instances of voting 
discrimination and disenfranchisement that I have been working 
on.
    The first is a case recently decided by the Ninth Circuit 
in July. I represented retired Air Force Major ``Dave'' Davis. 
Major Davis served on Guam and decided to live there on 
retirement. Guam is governed by the Federal Organic Act of 
1950. The Organic Act bans racial discrimination in voting and 
explicitly incorporates the protections of the Fifteenth 
Amendment. Nevertheless, the legislature of Guam passed an 
election law confining the right to vote in a status plebiscite 
to a preferred racial group--so-called native inhabitants.
    In other words, Guam imposed voter qualifications based on 
blood ancestry, much like the Oklahoma grandfather clauses 
struck down by the Supreme Court over a century ago.
    Now, Congress has required Guam to adhere to civil rights 
obligations in the Fifteenth Amendment and other Federal 
statutes. But, ironically, Guam also received over $300,000 in 
Federal funds from the Department of the Interior to conduct 
education campaigns about this very same racially 
discriminatory voting process. That is something Congress can 
fix.
    When Dave Davis sought to register to vote at the 
Government office, his registration form was marked ``Void'' by 
election officials. The form is in my written record, in my 
written statement. Even in the Jim Crow South of the early 
1960s, Southern registrars were not brazen enough to deny the 
right to vote explicitly on having the wrong racial blood.
    We filed suit in Federal court way back in 2011, and the 
case is still continuing because Guam has been zealous in 
defending their racially discriminatory laws. It is so blatant 
that the United States District Court on Guam granted Mr. Davis 
summary judgment in 2017. And in July of this year, the Ninth 
Circuit Court affirmed.
    Despite this brazen racial discrimination, not a single 
civil rights organization took the case. Not a single civil 
rights organization offered to help Mr. Davis. Now, despite the 
long inventory of voting cases that we know about, not even a 
single civil rights organization filed an amicus in this case. 
In some voting cases, such as challenges to South Carolina 
voter ID, these same groups manage to duplicate or triplicate 
each other, despite the fact that not a single person was 
disenfranchised by the South Carolina voter ID law.
    Why is this important? It is important that reauthorization 
of the Voting Rights Act, if it occurs, is not done in a way 
that affects partisan interests, because all too often civil 
rights enforcement is also about partisan interests.
    To add insult to injury, Mr. Davis could not even get the 
United States Department of Justice to help him in 2011. His 
pleas were ignored by the Civil Rights Division. No case was 
filed on his behalf. No amicus was filed to help him. No 
nothing. Even after the Ninth Circuit Court of Appeals in 2005 
ruled that he had a ripe case, the Justice Department failed to 
act. Oddly, ripeness was cited by the Chief of the Voting 
Section in an internal Inspector General report as to why the 
DOJ did not help Mr. Davis. Finally, in November 2017, the 
Justice Department did what it should have done 6 years earlier 
and appeared in court seeking to strike down the racially 
discriminatory voting law.
    Congress can do something. For one, stop public funding of 
racially discriminatory election public information campaigns. 
Congress has exclusive power in the territories and can stop 
this.
    The second example which I will briefly mention involves 
the Commonwealth of Virginia canceling citizen registration; in 
other words, citizens are having their voter registrations 
canceled in Virginia. We found this out when we began to 
inquire about records regarding noncitizens, and we found that 
the Commonwealth is routinely canceling citizens.
    In sum, there are things Congress can do: first of all, 
reexamine the interplay between motor-voter DMV laws and 
election officials. The DMV part of motor-voter is hidden from 
the public because Congress hid it.
    Secondly, Congress has shielded State motor vehicle 
departments, and that shield should go away.
    Third, Congress should strengthen obligations for election 
officials to be transparent. We are currently suing the State 
of Pennsylvania, North Carolina, and Harris County, Texas, 
because they are not allowing public inspection of election 
records in those three places.
    Fourth, Congress should allow States to verify citizenship.
    Thank you very much for this opportunity.
    [The statement of Mr. Adams follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Mr. Adams.
    Ms. Myrna Perez is director of the Voting Rights and 
Elections Program at the Brennan Center for Justice at NYU 
School of Law; author of several nationally recognized reports 
and articles, including ``Purges: A Growing Threat to the Right 
to Vote,'' ``Noncitizen Voting: The Missing Millions,'' and 
``Election Day Long Lines: Resource Allocation.'' She is a 
lecturer-in-law at Columbia and has served as an adjunct 
professor of clinical law at the NYU School of Law. She 
received her law degree from Columbia. She is also a Lowenstein 
Public Interest Fellow, received a master of public policy from 
Harvard's Kennedy School of Government, and an undergraduate 
degree from Yale.
    Ms. Perez, you are recognized for 5 minutes.

                    STATEMENT OF MYRNA PEREZ

    Ms. Perez. Thank you, committee members, for having me. I 
am Myrna Perez, and I am the director of the Voting Rights and 
Elections Program at the Brennan Center for Justice at NYU 
School of Law.
    The Supreme Court in Shelby County left Congress with a 
critical challenge: pass a revised coverage formula. 
Accordingly, we ask this committee to take note. A number of 
State and local jurisdictions have continued to implement 
discriminatory voting laws. They have continued to 
disenfranchise voters of color in our elections. In fact, over 
the past decade, the Brennan Center has documented a wave of 
new laws and practices burdening the right to vote, especially 
targeting communities of color.
    These ongoing problems demand a thoughtful and strong 
response. Section 5 of the Voting Rights Act reflects an 
important insight: State and local officials looking to 
suppress the vote have a wide variety of tools and tactics at 
their disposal. I go through some of these tools and tactics 
during my written testimony, but the one I will focus on here 
is that of aggressive voter purges, which can aggressively and 
unfairly target voters of color and disenfranchise large 
numbers of eligible citizens.
    Purges refer to the process election officials use to try 
and remove the names of ineligible voters from voter 
registration lists. Obviously, this process is an important 
part of any election officials' jobs. When purges are done 
right, they ensure that the voter rolls are accurate and up-to-
date--something we all agree is useful.
    However, when purges are done improperly, they 
disenfranchise legitimate voters and undermine confidence in 
our democratic processes. Moreover, improper purges can lead to 
discriminatory results, sometimes by mistake and sometimes on 
purpose. For example, reports indicate that New York's purge 
leading into the 2016 election disproportionately affected 
Latino voters. So did Florida's 2012 purge attempt.
    Prior to Shelby, covered jurisdictions were required to 
preclear changes to their purge practices before implementing 
them. Not anymore. And what have we seen? Between 2014 and 
2016, States removed almost 16 million voters from the rolls. 
That is almost 4 million more than States removed between 2006 
and 2008. That is an increase of 33 percent, far outstripping 
growth in both total registered voters and total population.
    Our research suggests that Shelby County had a notable 
impact on that growth. Prior to Shelby County, jurisdictions 
subject to preclearance had purge rates in line with the rest 
of the country. But for the three election cycles ending in 
2014, 2016, and 2018--in other words, after Shelby County--
preclearance jurisdictions had significantly higher purge rates 
than other jurisdictions.
    To put it another way, before Shelby County, jurisdictions 
subject to preclearance looked like the rest of the country 
when it came to purges. But after, formerly covered 
jurisdictions increased their purge rates while everyone else 
remained about the same.
    We calculated that 2 million fewer voters would have been 
purged between 2012 and 2016 if jurisdictions previously 
subject to preclearance had purged at the same rate as other 
jurisdictions.
    We have seen several improper purges since Shelby. Just 
this year, for example, a Federal court stepped in to stop 
Texas officials from purging about 95,000 voters from the 
rolls. Texas initially claimed these people were noncitizens, 
but the State relied on bad data and methodology. In 2016, New 
York wrongly deleted more than 100,000 names from the rolls. 
That same year, the Arkansas Secretary of State prepared a 
highly inaccurate purge list of nearly 8,000 names.
    Purges typically happen behind closed doors with the stroke 
of a keyboard. As a result, voters often don't know they have 
been purged until they show up to vote. Because they are below 
the public radar, it is difficult to address the effects of bad 
purges until it is too late. And that is why Section 5's 
preclearance process is particularly well tailored to address 
not only voter discrimination and other reforms, but the purge 
problem specifically, because a revitalized preclearance regime 
would require covered jurisdictions to obtain approval for new 
purge practices before they get into place.
    The need for preclearance is particularly urgent in light 
of developments over the last decade. We have new databases 
popping up which supposedly identify ineligible voters, but 
they are producing flawed results that can lead to improper 
purges. States are passing new laws looking for different 
grounds upon which to purge people, and relying on discredited 
methodology, certain groups are pushing localities to increase 
the aggressiveness of their purges.
    Many advocates sitting here will do our very best to 
protect voters against discriminatory laws and policies under 
the laws that we have, including against improper purges. But 
Congress can and should also act to protect voters. The Supreme 
Court has repeatedly affirmed congressional power to enact a 
coverage formula for Section 5 preclearance, including the 
Shelby County decision itself. We urge Congress to revitalize 
the VRA, and I am very much looking forward to the questions.
    [The statement of Ms. Perez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Ms. Perez.
    Our final witness is Ms. Natalie Landreth, senior staff 
attorney for the Native American Rights Fund based in NARF's 
Anchorage, Alaska, office; a member of the litigation 
management committee of that group. Her practice covers a wide 
variety of Federal Indian law and election law issues, 
including the VRA and constitutional voter protections. She has 
been instrumental in establishing key voter protections in 
Alaska through two significant cases and testified in Congress 
in support of the renewal of the VRA in 2006. She is a magna 
cum laude graduate of Harvard University and received her law 
degree from Harvard as well. She is a member of the Chickasaw 
Nation.
    Ms. Landreth, you are recognized for 5 minutes.
    Ms. Perez, can you help her?
    Ms. Perez. Yes.
    Mr. Cohen. We have a faulty machine.

                STATEMENT OF NATALIE A. LANDRETH

    Ms. Landreth. Thank you very much. My name is Natalie 
Landreth, I am a citizen of the Chickasaw Nation, Imatobby 
family. I am here today in my capacity as a staff attorney at 
the Native American Rights Fund, otherwise known as NARF. I 
have held this position since 2003 and worked on voting cases 
since 2006. I thank you for the invitation to speak here today, 
to speak on ongoing voter discrimination in Indian Country, 
because there is a lot and it is egregious.
    There is a view that what are called ``first-generation 
barriers''--direct impediments to polling places and access to 
voting--is a thing of the past, and that view is wrong. First-
generation barriers are not gone, and this month--in support of 
this testimony--the Native American Rights Fund will be 
submitting a report on nine field hearings we conducted 
throughout Indian Country that show the extent of these 
barriers, including testimony from voters who said they were 
forced to vote in an abandoned chicken coop, complete with egg 
boxes remaining behind, and voters who claimed that they had 
been forced to vote in a sheriff station with an armed sheriff 
who ran their plates before they walked inside.
    I want to address three things in my testimony today 
briefly. First, I want to talk about how the loss of 
preclearance has affected our work and how it is impacting your 
constituents. Second, I want to talk about what previously 
discovered--previously covered jurisdictions are now doing. 
And, third, I want to talk a little bit about ``known practices 
coverage,'' which is included in this draft of the VRAA.
    First, the loss of preclearance means just that the burden 
has shifted from the jurisdictions onto the voters themselves. 
What I mean is that they previously had to submit them to the 
DOJ, and now we have to sue to get them undone. It is 
enormously burdensome, and in an average voting case, NARF 
alone, a fairly small organization, will spend thousands of 
hours over several years and over $1 million to stop a single 
discriminatory voting change. And what ends up happening is 
that because Native Americans have brought 95 voting cases, 
approximately, and won 92.5 percent of the time is that these 
jurisdictions end up paying our attorneys' fees and shifting 
that cost onto the taxpayer so that taxpayers end up 
subsidizing the discrimination that is occurring by local 
officials. This tells us, the success rate, that discrimination 
is real and it is ongoing.
    Second, the loss of preclearance means that the previously 
covered jurisdictions implemented discriminatory changes that 
had previously been denied. One example is, of course, the 
Arizona ballot harvesting law. The reason that was so critical 
in Indian Country is that only 18 percent of Native Americans 
outside of Pima and Maricopa counties actually have home mail 
delivery. So what they would have to do is pool their ballots. 
Neighbors would collect all of your mail and take it to the 
post office at the same time, and this law turned them into 
potential felons for handling a voted or unvoted ballot that 
did not have their name on it.
    The other thing that happened in this jurisdiction after 
the loss of preclearance was that testimony indicated--and this 
is currently in litigation--there was an astounding step 
removing polling locations from hundreds down to about 60 in 
2016. The result, according to testimony, was lines 4 to 6 
hours long, and this can be found specifically in the Arizona 
field transcripts that we will be providing, complete with 
locations and names of witnesses.
    I want to speak briefly to the fact that there are some bad 
actors everywhere. We talk about how people feeling like 
certain States are targeted, that is not true. The known 
practices formula in--the known practices list, I should say, 
in this bill will help. Let me give you an example from 
California.
    Somebody testified that they were unable to register to 
vote in Northern California because their local jurisdiction 
considered a mobile home not to be a permanent residence and, 
therefore, people on this Indian reservation were not being 
allowed to vote. Fortunately, Secretary of State Alex Padilla 
was in the audience at the time, and we understand this has 
since received some attention.
    Another jurisdiction not covered whose practices would be 
addressed by the known practices component of this bill: North 
Dakota. A very well publicized situation, what some people 
consider to be a facially neutral law that is completely false 
because 24 percent of Native Americans have no ID. The court 
said it best: You need an ID to get an ID in North Dakota. Most 
of the elderly Native Americans were born at home, so they 
don't have birth certificates from the '20s, '30s, and '40s. 
And they can't get the documents they need, not to mention a 
significant number of them have no access to transportation to 
do that.
    So I would like to close by saying that the known practices 
section lists these pieces, but so does a component bill that 
we have drafted based on our field hearings and the findings 
therein called the ``Native American Voting Rights Act.'' We 
encourage this committee and Congress to pass the VRAA and also 
the Native American Voting Rights Act.
    Thank you.
    [The statement of Ms. Landreth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you. Firstly, I would like to compliment 
our panel, the first panel I think I have ever witnessed that 
all got to 5 minutes and stopped. Great.
    We will now proceed under our questioning, which is a 5-
minute rule of questions, and I will recognize myself for 
questions.
    Mr. Ho, you mentioned some jurisdictions where Section 2 
cases have taken place since Holder, Shelby v. Holder. Where 
are those jurisdictions? Are they predominantly in any 
particular class of jurisdiction?
    Mr. Ho. So there have been 26 successful Section 2 cases 
since Shelby County v. Holder, and I define ``successful case'' 
as a case where either a court ruled in favor of the plaintiffs 
or the parties settled and the plaintiffs got some of the 
relief--some or all of the relief that they sought. I think two 
things stand out when you look at what kind of jurisdictions 
those cases arose from.
    The first is that, of those 26 cases, I think 16 of them--
and there is a table in my written testimony that sets this 
out--happened at the local level. So a majority of the 
successful Section 2 litigation that we have seen happens at 
the city, county, school board level. And I think what that 
speaks to is the importance of the notice and transparency 
requirements of the VRAA because changes to voting laws at the 
local level are harder to detect. And that is something that we 
lost with the demise of the preclearance regime.
    The second thing is that a majority of these cases arose 
from a small handful of States--and, again, they are set forth 
in my testimony--that used to be covered by Section 5; and that 
provides, I think, some evidence that the problem of voting 
discrimination remains concentrated in particular places and 
justifies particular congressional attention to those places.
    Mr. Cohen. And those States, if I remember correctly, that 
were in the preclearance area were all in the Old Confederacy 
but for Arizona as far as States go. Is that not accurate?
    Mr. Ho. As far as fully covered States go, I believe that 
is right, but there were some partially covered States--
California, New York--that were not.
    Mr. Cohen. And when you say partially covered, that is 
because they were local jurisdictions. They happened to be in 
the State.
    Mr. Ho. That is correct.
    Mr. Cohen. And then those were the States where most of 
this Section 2 action took place.
    Mr. Ho. That is correct.
    Mr. Cohen. So the old expression in the song ``Dixie,'' 
``Old times there are not forgotten'' maybe has more of a 
current ring than one would understand.
    Mr. Ho. Well, I think the numbers speak for themselves.
    Mr. Cohen. Yes, sir. Ms. Perez, on purges, what are some of 
the reasons for purges?
    Ms. Perez. There are a lot of reasons for purges. Some of 
them are necessary. We want our voter rolls to be clean, so 
people are removing them because people have died, people have 
moved, people are no longer eligible because of a criminal 
conviction.
    The problem that we are seeing in this country is that 
purges are on the rise. The protections that were once 
available to let the public and the Department of Justice know 
about purge practices that had changed or are no longer 
available, and when people are purged, they often find out on 
election day when it is too late.
    Mr. Cohen. Are some of the purges because people have not 
voted in X amount of elections or a certain period of time?
    Ms. Perez. A number of States have different practices that 
they use, and every State in the country that is subject to the 
NVRA has a process by which, if someone is flagged for a 
certain reason for removal, they can be given a notice, and if 
they do not respond to----
    Mr. Cohen. Let me go back to my question.
    Ms. Perez. Sure.
    Mr. Cohen. Do not some jurisdictions purge you because you 
have not voted within the last 2 years, 4 years, 6 years, or 
whatever?
    Ms. Perez. There are some States that have policies like 
that, yes.
    Mr. Cohen. And are those States--have any particular 
similarities? Are they particularly in preclearance States? Or 
are they just willy-nilly?
    Ms. Perez. No, sir. But one of the things that is important 
about the preclearance provision is that it accounts for 
changing practices, so a State could change its practice to 
encapsulate more people in the purge process.
    Mr. Cohen. But you said--did you not say that since Shelby 
v. Holder purges have increased in preclearance States while 
they have not increased in other States?
    Ms. Perez. That is correct. That is correct. The States, 
however, that use a policy like, for example--I am assuming you 
are pointing to Ohio's and the like--that use a failure to vote 
as a trigger for sending a notice and other ones are in more 
places just than the Southern States.
    Mr. Cohen. You are familiar with Australia where it is 
required by law that you have to vote?
    Ms. Perez. That is correct.
    Mr. Cohen. So how do they get along? They do not have to 
purge anybody, do they?
    Ms. Perez. I am actually not familiar with how they--that 
they enact the law, but what I think is important in this 
country is that we have a continuing evidence of 
discrimination, and Congress has vast authority to be able to 
rectify that pursuant to its authority under the Fifteenth 
Amendment.
    Mr. Cohen. Ms. Gupta, since the effective suspension of 
Section 5 preclearance, Holder, Shelby, what has been the pace 
of litigation on Section 2, which we discussed with Mr. Ho, in 
formerly covered jurisdictions compared to noncovered ones? 
Have you seen preclearance States that were in the previous 
Voting Rights Act be more active and have been found in 
litigation to have been more active?
    Ms. Gupta. Well, private litigants like my colleagues 
sitting here at the table have certainly had to engage in much 
greater activity in Section 2 litigation, and my colleague Dale 
Ho, the chart really shows the degree to which there has been a 
need for Section 2 litigation in jurisdictions that were 
previously precleared or had a preclearance regime with the 
Justice Department. And I also--I mean, there has been a stark 
marked contrast now with the Justice Department under the Trump 
administration which has not opened a single voting rights 
investigation. But for the private litigants, the effort now to 
become aware of hyper-local changes, which are often very hard 
to detect at the national level, has become imperative to be 
able to protect people's right to vote, and it is why we are 
here today to urge restoration of the Voting Rights Act.
    Mr. Cohen. Thank you.
    Mr. Johnson, you are recognized for 5 minutes.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman.
    Mr. Adams, I have watched you with a very pensive 
expression on your face here the last few moments. Is there 
anything you want to respond to before I ask questions that--
something you have heard?
    Mr. Adams. First of all, I apologize for not having a poker 
face. A couple States were left off the list of States under 
the old preclearance regime were covered. It is not all Dixie. 
It is South Dakota. It is Alaska. It is New Hampshire. It is 
Michigan. Parts of New York were covered, New York City, but 
that translates into New York State when it comes to rules that 
are passed in Albany related to the elections in New York. So 
it is not just Mississippi and South Carolina.
    Mr. Johnson of Louisiana. Thanks for that clarification. It 
is not often in this era that a Federal appeals court finds 
purposeful discrimination based on race in voting. But the 
Ninth Circuit Court of Appeals did just that in the case you 
have described.
    Can you just elaborate a little bit more on the 
significance of that Ninth Circuit decision and how it compares 
to any other recent Federal courts--Federal appeals court 
rulings of intentional race discrimination in voting?
    Mr. Adams. Well, right, the case in Guam that I testified 
about, you literally have on the voter registration a blood 
ancestry test. It is on the form that you have to say who your 
parents are. And it says you have to have the right blood 
before you can vote. And the court in the Ninth Circuit ruled 
that this is intentional discrimination.
    Now, we often hear--and I understand that circuit courts 
trump district courts, but we often hear about the surgical 
precision quote. We hear that over and over on a loop. But the 
reality that really bears some reading is the lower-court 
ruling, which I understand was reversed, but it was a rare, 
many-hundred-page factual finding that there was not 
intentional discrimination. It is not often that an appeals 
court reverses factual findings, but they did in that case.
    Mr. Johnson of Louisiana. Has it ever been easier to vote 
in this country? In other words, it seems we have made a lot of 
progress on access to voting. I wonder if you would elaborate 
on that.
    Mr. Adams. I think there is an awareness among election 
officials at the State level about the importance of making it 
easier to register to vote. I have testified, I think, to this 
committee or maybe it was to the Oversight Committee, that it 
has never been easier to register to vote in America than it is 
in 2019. It has never been easier to vote in America than it is 
in 2019.
    Mr. Johnson of Louisiana. When an illegally cast vote 
negates the effect of a legally cast vote, that constitutes a 
suppression of voting as much as any other vote suppression 
efforts. Can you describe how measures to protect the integrity 
of the vote are themselves measures designed to protect the 
vote?
    Mr. Adams. Right, and look, I don't buy the idea that you 
can't get it right. Right? You can have clean voter rolls, you 
can have integrity, and everybody gets a chance to vote. I 
think, for example, that voter ID should be free and easy to 
get, and that is why the South Carolina voter ID law should 
have never been objected to by the Holder Justice Department. 
In fact, there was a fail-safe mechanism, and in the end we 
know what the outcome of that was, of the district court, even 
though that the burdens were reversed. And that is what Section 
5 does, is reverse the burdens. The district court still ruled 
in favor of South Carolina and said, despite the millions of 
dollars spent by the groups fighting it and saying that it was 
discriminatory, the court ruled that it was not. And it is an 
example of how Section 5 can be abused if it is reauthorized.
    Mr. Johnson of Louisiana. I think I have time for one more 
question about the Guam case. I noticed it was only the Trump 
Justice Department that was willing to ultimately help Major 
Davis in his case against Guam. What was going on during the 
previous administration that they would not help a retired 
servicemember protect his right to vote?
    Mr. Adams. That is a great question, and there is not a lot 
of answers except in the Inspector General report where the 
Chief of the Voting Section said that they did not think the 
case was ripe. Well, the Ninth Circuit put that to rest in 2015 
and said that the case was ripe. We still saw 2 years of 
inactivity, unwillingness, not even an amicus brief to help 
this brazen voter discrimination.
    If you look at the record of the Bush Justice Department, 
the Obama Justice Department, and the number of cases filed, 
you will see very clearly the Bush Justice Department was far 
more active in Section 2 enforcement--and I have testified in 
previous testimony to this committee. Section 2 enforcement 
from 2009 to 2017 virtually went to sleep.
    Mr. Johnson of Louisiana. I have got 30 seconds left. Why 
didn't any of the other groups assembled at the table today do 
anything about the cases you mentioned today? Do you have any 
theory about that?
    Mr. Adams. Well, I caution the committee that it is 
important, if you are reauthorizing the Voting Rights Act, to 
not make it partisan. And in some corners, I think that the 
Voting Rights Act is viewed as a partisan weapon. In fact, a 
professor, Ellen Katz in Michigan--I believe she wrote this--
even said that the Justice Department should use the Voting 
Rights Act as a partisan weapon obviously against this side of 
the room. And so I think that is the danger; when you see South 
Carolina voter ID being attacked, that is how it is viewed.
    Mr. Johnson of Louisiana. I am out of time. I yield back.
    Mr. Cohen. Thank you.
    Before I recognize Mr. Nadler, just so we have the facts 
straight, I had made the statement about the States that were 
covered, and with the exception of Arizona, which I mentioned, 
the only State covered in whole outside of the Old Confederacy 
is Alaska. The other States are local jurisdictions, which I 
also mentioned there are local jurisdictions other places. So I 
forget--I apologize for forgetting Alaska and for not knowing 
about Guam.
    Mr. Nadler, you are recognized.
    Chairman Nadler. Thank you. I won't comment on the obvious 
distraction of the Guam case, which has nothing to do with what 
we are talking about and was pretty egregious.
    Let me ask Mr. Ho, at our hearing last week in Memphis, the 
minority witness suggested that Congress was constrained in its 
ability to adopt legislation to reinvigorate Section 5 
preclearance, notwithstanding its power under the Fourteenth 
and Fifteenth Amendments, essentially because the current level 
of discrimination is not severe enough, in his opinion, to 
justify Federal interference in State and local elections and 
because Congress looks at evidence of discriminatory effect and 
not just discriminatory purpose.
    What is your response? Is it not well within Congress' 
broad constitutional authority under the Reconstruction 
Amendments to determine not only the existence of 
discrimination but also to assess whether such discrimination 
is sufficiently severe so as to justify a Federal legislative 
response?
    Mr. Ho. Thank you for that question, Chairman Nadler. I 
believe that Congress does, in fact, have the authority in 
light of current conditions to reinvigorate the Voting Rights 
Act. The Supreme Court in City of Boerne issued a decision that 
creates a rule that if Congress wants to exercise its 
Fourteenth Amendment enforcement powers, there must be a record 
of constitutional violations. I think we have that here. And I 
think that the Section 2 evidence that I referenced earlier, 
although a violation of Section 2 does not require a judicial 
finding of intentional unconstitutional discrimination, the 
test for liability under Section 2's results test is, in fact, 
quite similar to the test that the Supreme Court announced in 
Rogers v. Lodge for unconstitutional voting discrimination.
    We heard a little bit of commentary about the disparate 
impact standard. I just want to say something about that. This 
Congress adopted Section 2's results standard in 1982. It was 
signed into law by President Ronald Reagan. It is not a pure 
disparate impact standard. Liability depends on factors that 
are similar to the factors for a finding of unconstitutional 
discrimination. And it was adopted specifically because 
Congress didn't want to put judges--this is in the '82 
Congressional Record--didn't want to put judges in the 
difficult position of having to call legislators in their 
counties or in their States racist, to have to call out their 
intent. But it functions a lot like an intent test, and I think 
it would be a bit perverse today to look at Section 2 
violations, which are intended to make it easier for courts to 
strike down discriminatory laws, and say that is not relevant 
in assessing whether or not constitutional violations have 
occurred and whether or not stronger congressional action is 
necessary.
    Chairman Nadler. Thank you.
    Let me ask Ms. Gupta, we heard testimony at the hearing in 
Memphis last week that--and we have heard testimony all over 
the place--to the effect that enforcing the law through Section 
2 litigation is time-consuming, very expensive--even if you win 
the case, you spend $2 million on it--and so forth. What would 
you think of legislation to impose all costs, all costs, on the 
defendant government if it loses a Section 2 case? All 
plaintiffs' costs, not just attorneys' fees.
    Ms. Gupta. Well, so just to start out, it is indeed 
incredibly costly and time-consuming. I think the most 
pernicious effect of the loss of the preclearance regime and 
the amount of Section 2 litigation that has been required since 
the Shelby County decision has actually been the number of 
elections that have taken place pursuant to laws that have 
later been found by Federal courts to have been enacted through 
intentional discrimination as well as through violations of 
constitutional and Federal law. And there is no accountability 
or mechanism to actually seek that redress because those 
election have taken place and voters were penalized unlawfully 
for that.
    But on this question of cost, it is an interesting idea. I 
think one of the major issues around the loss of Section 5 has 
been the inability to hold officials accountable when they do 
engage even in intentional discrimination in the enactment of 
laws. And so this notion of cost, some kind of shifting the 
burden of cost, I think is an interesting remedy to pursue. I 
don't think it is enough, though, as a substitute for 
preclearance, but certainly to be able to have some deterrent 
mechanisms in place such that officials kind of think twice, 
hopefully the Constitution is something else that they think 
about when they are enacting these laws, that it is certainly 
something to be--to be researched.
    Chairman Nadler. Thank you. In the 27 seconds that I have 
left, would you support amending Section 1983 or use of Section 
1983 to allow the Justice Department to sue local officials for 
damages for voting rights violations, for deprivation of civil 
rights under color of law in effect?
    Ms. Gupta. Congressman, that is a really interesting idea. 
I would love to come back to you with my thoughts on it. 
Section 1983 is definitely a really important civil rights 
statute that has been used in the police misconduct context. 
And I think that there--on this issue of accountability, it may 
be another tool that is at our disposal. As you know, the 
Supreme Court has withered down Section 1983's protections, and 
I would welcome the opportunity to talk about the importance of 
strengthening Section 1983 by Congress.
    Chairman Nadler. Thank you very much. I yield back.
    Mr. Cohen. Thank you, Mr. Chair.
    I now recognize for 5 minutes Mr. Gohmert of Texas.
    Mr. Gohmert. Thank you, Mr. Chairman. And I appreciate the 
witnesses' being here.
    Just so that we can inform our full committee chairman who 
said that the Guam information is not relevant to anything 
here, the subject of this hearing is, according to the 
Democrats, ``Evidence of Current and Ongoing Voting 
Discrimination.'' And, you know, here is the form that was used 
in Guam. It is relevant in this decade that we would have a 
form like this and not one of the groups represented here would 
go stand up and say this is absolutely intolerable to make 
somebody go through, and even down to the mother and father, 
both parents, certifying you were a native in 1950. It is 
prejudicial to the groups of Chinese, Palauan, Japanese, 
Ponpeiian, the Korean--all of those that were not there in 
1950. And I appreciate the looks I am getting from some of our 
witnesses, but it really is embarrassing that nobody stepped 
up.
    Mr. Christian, I recall a Black Panther intimidation case 
that occurred when you were there at the Justice Department. 
Were you allowed to go ahead and get judgment against those 
people that were intimidating at an election site?
    Mr. Adams. Well, I confess I have tried to forget about 
that case, but I will do my best.
    Mr. Gohmert. I am just asking----
    Mr. Adams. Right.
    Mr. Gohmert. Were you allowed?
    Mr. Adams. The case was dismissed as to, I believe, two 
defendants, a corporate defendant. I think the man--no, Mr. 
Jackson--it was dismissed against two of the defendants, right.
    Mr. Gohmert. And you were not allowed to pursue that; it 
was dismissed?
    Mr. Adams. Well, yeah, there is a long record there.
    Mr. Gohmert. Well, and you mentioned this incident in Guam 
where the Justice Department under the Obama administration 
would not go in and say this is wrong, we can't have these kind 
of forms. It does not matter what your race is. You ought to be 
able to come in and vote.
    Who was head of the Civil Rights Section at that time in 
2012?
    Mr. Adams. That is a good question. I am not sure exactly 
who was the head of--the Assistant Attorney General. I know 
that after--the Inspector General questions were directed 
toward the Voting Section Chief, who said that ripeness was the 
barrier.
    Mr. Gohmert. Well, I know. You testified to that. But I 
know Tom Perez was there at some point.
    Mr. Adams. He may have been the AAG. I can't remember.
    Mr. Gohmert. Yeah, and where is he now?
    Mr. Adams. DNC.
    Mr. Gohmert. Yeah, he is chair of DNC. That is right.
    Now, our chairman of the full committee called them 
``draconian voter ID laws,'' and I know--he is apparently not 
aware, but I know I read in 2012 the Democratic National 
Convention would not allow anyone to come in and vote unless 
they had, in their words, a State-issued ID. Wow. The 
Democratic National Convention is using and has used in this 
decade a draconian voter ID requirement. That is incredible.
    Having gone through John Fund's book, ``Stealing 
Elections,'' John Fund makes the point that the greatest 
election fraud is the statement that there is no election 
fraud. It has gone on for years, for those that don't know. You 
can go back and look at Duval County in Texas or Cook County in 
Illinois. It has gone on, and there are places it still goes 
on. And anytime we allow people to vote without showing some 
evidence that they are allowable to vote, it disenfranchises 
all of the legally voting people, and people that vote more 
than once.
    Anyway, there are a lot of problems that need to be dealt 
with, and it is just amazing to me. Let me tell you, back when 
this was reauthorized, I wanted to vote for the voter--for the 
VRA. It needed to be reauthorized. But none of you have brought 
up it had a formula that required punishing States for what had 
happened 50 years before. Generations were being punished. And 
I went to the Republican leader at that point of this 
committee, Mr. Sensenbrenner, and as I recall, there was a 
district in Wisconsin that had racial disparity. And he said, 
``We are not changing that 50-year-old formula. We are going to 
keep punishing the original States.''
    And I went to John Conyers, and he was very gracious. And 
he said, ``Louie, let me talk to some people.'' And he did. He 
said, ``You got a good point, but we are going to be able to 
get it passed. Let's let it go to the courts.'' I said, ``It is 
going to be struck down,'' and I named some very liberal 
people, including the dean from the New York Law School had 
just left there, and he said, ``Yeah, it has got to be struck 
down. It is unconstitutional.''
    For those that were not aware, we should not be punishing 
generations for the sins of 50-year-before generations. That is 
where we ought to be able to come together. Let's deal with 
racial disparity where it is and then allow Section 5 in those. 
But I was not allowed to have that as an amendment. That is why 
we are here with you blaming Shelby County.
    I yield back.
    Mr. Cohen. Thank you.
    Mr. Raskin, you are recognized.
    Mr. Raskin. Mr. Chairman, thank you very much.
    Mr. Ho, we just heard from my thoughtful colleague about 
how Southern States were punished under the Voting Rights Act. 
He repeatedly used the word ``punishment.'' Was there any 
punishment in the Voting Rights Act before the Shelby County 
case? Did anybody go to jail? Was anybody imprisoned because of 
voting rights violations?
    Mr. Ho. There was certainly no punishment in the way that 
you have described it, Congressman Raskin. And I just want to 
say in response to Congressman Gohmert's comments, I appreciate 
the comments about the need to have a preclearance provision 
that reflects current conditions, and I think the Voting Rights 
Advancement Act, which is based on findings of recent voting 
rights violations, does precisely that, and I hope we can come 
together and pass something. And I appreciated your support for 
the Voting Rights Act in 2006, and I hope to see your support 
for stronger voting rights protections today.
    Mr. Raskin. Ms. Gupta, let me come to you. If somebody robs 
a bank or a gas station, they are going to be prosecuted and go 
to jail for that if they are convicted. Today in the wake of 
Shelby County v. Holder, if a State engages in a deliberate 
effort to suppress voting rights or to keep people from voting 
or to dilute the votes of a minority group, what happens?
    Ms. Gupta. Well, as we said, often getting to those 
decisions or determinations where Federal courts will actually 
declare that takes years of litigation.
    Mr. Raskin. Right, so many years later, after the offense 
has taken place, what would happen to them?
    Ms. Gupta. There is no accountability for the State 
officials that enacted laws that were found to be racially 
discriminatory after the fact.
    Mr. Raskin. Nobody goes to jail, right?
    Ms. Gupta. Nobody goes.
    Mr. Raskin. There is actually no punishment. But what about 
the actual voting rights violations that took place--
    Mr. Gohmert. Will the gentleman yield?
    Mr. Raskin [continuing]. In the meantime? Well, I only have 
4 minutes. I mean, I would be happy to do it at the end if I 
have got time left over. But what happens in the meantime? In 
other words, you go to--now in the absence of the preclearance 
requirement, you go to court. Many years later, maybe you get a 
ruling on your behalf. In the meantime, there have been all of 
these elections that have taken place with the voting rights 
violation in force. So what can be done retroactively to make 
the democracy whole?
    Ms. Gupta. There is nothing. Voters have essentially been 
disenfranchised while elections have taken place.
    Mr. Raskin. Okay. So let's be very clear about this. When 
the Supreme Court wiped out the preclearance requirement 
because of the coverage provision in Section 4, essentially 
what it did was knock the teeth out of the Voting Rights Act 
because there is nothing to keep a jurisdiction now from 
engaging in a voting rights violation because nobody is going 
to go to jail for it. And even if the people who bring the 
case, the plaintiffs, win several years later, all that you 
would get is an order to stop doing it in the future. In the 
meantime, you have had all these elections that have 
essentially been fixed by the fraud of voting rights 
suppression, dilution, discrimination, and so on.
    Mr. Johnson, let me come to you. Before leading the 
national NAACP, you were president of the Mississippi 
Conference, am I right? Which Mississippi has the highest 
percentage of African Americans than any State in the Union, 
yet the State has not elected an African American statewide in 
more than 130 years, since Reconstruction. In fact, the 
Mississippi Constitution requires candidates for statewide 
office to win not only more than 50 percent of the popular 
vote--or, actually, a plurality of the popular vote, but also 
more than half of the State's 120 legislative districts, two-
thirds of which are majority white. Do I have that right?
    Mr. Johnson. That is correct.
    Mr. Raskin. Okay. Now, if a candidate doesn't meet both of 
those conditions, winning a majority in the election and then 
winning more than half of the State's legislative districts, 
then the State House chooses the winner, regardless of who got 
the most votes. Do I have that right?
    Mr. Johnson. That is correct.
    Mr. Raskin. Okay. And this is being challenged in court 
right now.
    Mr. Johnson. That is correct.
    Mr. Raskin. I assume that is right.
    Now, why was this constitutional requirement put into place 
in the first place? What was its historical origin?
    Mr. Johnson. Much of Mississippi's electoral policy was--is 
derived out of the Constitution of 1890. That Constitution was 
after a period we call ``redemption,'' when former Confederate 
soldiers and politicians took back control of government. As a 
result of that, they put in place systems to suffocate the 
ability of African Americans to fully participate, not only the 
grandfather clauses and other literacy tests but additional 
barriers, because then, as it is now, Mississippi had the 
highest percentage of African Americans, and they wanted to 
keep in place----
    Mr. Raskin. Let me just ask you, because my time is running 
out, how has the corresponding lack of African American 
representation statewide affected the social, economic, and 
political rights in development of the African American 
community?
    Mr. Johnson. Not only is Mississippi the poorest State in 
the Union, but it underfunds much of the basic needs of African 
Americans and Mississippians as a whole. We have the poorest 
education systems, the poorest structures, and that is a result 
of the lack of representation of all citizens of the State 
because of these electoral barriers.
    Mr. Raskin. Thank you. I yield back, Mr. Chairman.
    Mr. Cohen. Thank you. Thank you, sir.
    Mr. Cline, the successor in interest to Mr. Goodlatte, and 
before that, what was the gentleman's name that was--Caldwell 
Butler.
    Mr. Cline. Well, Jim Olin came between them. He was on your 
side. But----
    Mr. Cohen. Well, Caldwell Butler is the one I so well 
regard.
    Mr. Cline. Thank you, Mr. Chairman.
    I am very interested in Mr. Adams' testimony about the 
events that were occurring in Virginia, and I want to ask him 
about that. But, first, I really am shocked to hear that this 
type of activity that occurred in Guam is occurring in the 21st 
century. And just to make it clear, let me go down the row 
really quickly and just a yes or no. Ms. Gupta, would you agree 
that that type of discriminatory election is unacceptable in 
the 21st century in the United States?
    Ms. Gupta. Congressman, I unfortunately cannot speak to a 
matter that was under investigation during my full tenure in 
the Justice Department.
    Mr. Cline. Okay. Mr. Johnson, yes or no. Unacceptable?
    Mr. Johnson. Well, I don't know much about the case, but if 
there is grandfather clauses or blood tests, that is something 
that we oppose.
    Mr. Cline. Okay. Mr. Ho?
    Mr. Ho. The Ninth Circuit appropriately found a violation 
of the Fifteenth Amendment.
    Mr. Cline. Appropriate. Thank you. Keep going. Yes?
    Ms. Perez. Myrna Perez. I am hesitant to answer too 
definitively given the reimagination of some of the cases that 
we have heard here today. But I will say that if the facts as 
presented suggest a grandfather clause, we would be opposed to 
it.
    Mr. Cline. Ms. Landreth?
    Ms. Landreth. I am not going to opine on a case that I know 
nothing about, but, frankly, I wanted to add that I find it 
embarrassing that almost half this House doesn't seem equally 
as disturbed by Native Americans voting in chicken coops and 
driving 98 miles one way to register. I would like you to focus 
on that for a while.
    Mr. Cline. I am focused on a form that was displayed that 
is blatantly discriminatory in its application for an election 
in a territory of the United States in the 21st century. And it 
is disturbing that I cannot get more unanimity that it is 
unacceptable.
    Now, Mr. Adams, you talked about Virginia. You talked about 
the motor-voter law and how it contributes to noncitizens not 
only getting on our voter rolls but also the improper 
elimination of citizens from Virginia's voter rolls. Can you 
elaborate on that and what we can do about it?
    Mr. Adams. Thank you, Mr. Cline. My organization has been 
data mining all around the country the process of noncitizen 
cancellation, and we have found and published multiple reports 
in Pennsylvania, for example, frankly of immigrants and green 
card holders who were inadvertently getting on the voter rolls. 
Right? This is not a conspiracy. This is a glitch. And in 
Pennsylvania's case, it was a glitch that affected the entire 
Commonwealth for 20 years. And what is happening is when they 
vote, they jeopardize their immigration status.
    In Virginia, the problem was even worse than noncitizens 
getting on the rolls. It was citizens actually being canceled 
through the citizenship process in Virginia. Individuals who 
were American citizens were being declared noncitizens by the 
State election officials and being removed from the rolls. This 
is a problem that Congress needs to address because the motor-
voter system is broken. It is not working because of technology 
changes in the last 30 years since motor-voter--25 years since 
it was passed.
    So it is important, I believe, that only citizens be on the 
rolls, and there are easy ways to fix that. Cooperate with 
State officials, Federal Government and State officials 
cooperate to, post-registration, verify citizenship. Allow 
States to do some form of citizenship verification that is 
nonintrusive. It is easily solved.
    Mr. Cline. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Cohen. Thank you, Mr. Cline.
    Ms. Scanlon, you are recognized.
    Ms. Scanlon. Thank you.
    The ranking member suggested in his opening remarks that 
evidence of disparate impact is not proof of discrimination, 
and I have to differ based upon our experience in the 
Commonwealth of Pennsylvania. Almost a decade ago, 
Pennsylvania's Republican-controlled legislature and executive 
passed a number of voter suppression measures which have since 
been struck down, including a strict voter ID law and some 
wildly gerrymandered electoral maps.
    Now, this legislation was facially neutral, but it had a 
disparate impact upon voters who were poor, elderly, women, 
residents of cities, people of color--in other words, voters 
who were overwhelmingly Democrats. I would submit that that 
disparate impact was evidence of identity politics of the most 
pernicious kind, which is trying to suppress the votes of 
citizens on the basis of their political identity as Democrats.
    In challenging the voter ID law in particular, advocates 
were fortunate in being able to uncover a recording of the 
House majority leader bragging to the statewide Republican 
Committee that his legislative accomplishments included--and 
this was 2012--``voter ID, which is going to allow Governor 
Romney to win the State of Pennsylvania.''
    So I am not so naive as to believe that those who would 
suppress the vote will always be so indiscreet. So I would like 
to ask, Ms. Perez, can you address what kind of evidence we use 
to show disparate impact to show that there is actual 
discrimination occurring in these cases?
    Ms. Perez. Certainly. Under Section 2 we have what many of 
us call a ``disparate impact plus standard'' whereby Congress 
in its wisdom set forth a series of factors that are designed 
to smoke out intentional discrimination because folks are 
exactly, as Member Scanlon noted, a little bit more discreet. 
And that evidence is, in fact, probative of what people are 
intending to do if they felt like they could get away with it.
    In addition, we have the continuing evidence of current 
conditions which would justify Section 5 of the Voting Rights 
Act and a reauthorzied Voting Rights Act that includes a 
coverage formula that is rolling, dynamic, and looks at a 
number of factors, both geographically and in terms of 
conditions that cause problems. So taken together, a Voting 
Rights Act which has a robust Section 5, a modern Section 4, 
and a strong Section 2 will go a very, very long way in rooting 
out racial discrimination.
    Ms. Scanlon. Okay. Thank you.
    Ms. Gupta, when Acting Attorney General Whitaker was here 
in February, I think, I asked him whether the Trump Department 
of Justice had brought any voting rights enforcement actions, 
and he was unable to recall that. Is it your testimony that the 
Trump administration has not acted to protect voting rights in 
any case since January 2017?
    Ms. Gupta. That is correct.
    Ms. Scanlon. That is what I thought.
    Ms. Gupta. Congresswoman, if you wouldn't mind, if I can 
just very quickly respond to something that is just somewhat 
galling at the table at the moment, something that Mr. Adams 
said. Those of us at this table know that Mr. Adams recently 
had to enter a settlement agreement in which he was actually 
forced to apologize for reports that contained inaccurate 
information about specific individuals removed from voter rolls 
in Virginia, the matter he was just talking about, allegedly 
because they were noncitizens. And I feel like it is important 
to also put that into the record.
    Ms. Scanlon. Thank you.
    One more follow-up question. Location and accessibility of 
polling places has been an issue in my district, and toward 
that end we introduced the Disability Voting Rights Act, which 
passed with H.R. 1 and would make it easier for individuals 
with disabilities, including seniors and veterans, to register, 
obtain absentee ballots, and access polling places.
    Can you describe how the locations of polling stations and 
their degree of accessibility present voting rights challenges 
for disabled and minority communities? And I think you have got 
some material about this in your new report that just came out.
    Ms. Gupta. We do. There has been a lot of enforcement on 
the part of both private organizations and the Justice 
Department in prior administrations around the lack of 
accessible polling places, and so there is a lot of work to be 
done. That has been a rigorous area of our work.
    I will say, though, that it is important to note that 
closing polling places because of ADA noncompliance really 
should be something of last resort because there are many ways 
to actually make polling places more accessible, including 
things like creating ample parking for temporary signage, you 
get same-day modifications that can be made, building temporary 
ramps and the like. And in a number of instances, that is 
exactly how accessibility has been improved without resulting 
in the need to close polling places to begin with.
    Ms. Scanlon. Okay. Thank you. I yield back.
    Mr. Cohen. Thank you.
    Mr. Armstrong, you are recognized for 5 minutes, sir.
    Mr. Armstrong. Thank you, Mr. Chairman. And, Mr. Adams, I 
guess if we are going to enter stuff on the record, I would 
give you an opportunity to--I know you talk about it a little 
bit in your written testimony, so I will give you an 
opportunity to respond.
    Mr. Adams. Thank you, Mr. Armstrong. Indeed, I discuss this 
at some length in my written testimony. Ms. Gupta's assertion 
that Mr. Adams was forced to apologize is flatly wrong. Mr. 
Adams chose to apologize for our organization relying on 
government election records which stated that noncitizens in 
Virginia were being removed from the rolls when, in fact, we 
discovered that those were actually citizens.
    I would note that Ms. Gupta's organization has done 
absolutely nothing about citizens being removed from the voter 
rolls; whereas, our organization is attempting to fix the 
problem. That was part of a settlement in a case. Nobody was 
forced to do anything, and there was no finding of any 
liability.
    Mr. Armstrong. Thank you. And then I just want to go into 
this motor-voter issue a little bit, primarily because, I mean, 
we are dealing with oftentimes people who English is not their 
first language and continue to move through this, and by 
automatically getting added to the rolls--I mean, we run into 
these election cycles. They get unbelievably competitive. It 
doesn't matter if it is Democrats or Republicans. People are 
running hot. Volunteers are out there.
    But there is another part to this, and then I will back up 
and tell a North Dakota story here in a second. But, I mean, if 
they register to vote or get into those situations, I mean, 
doesn't that impact their ability to become a citizen later?
    Mr. Adams. Absolutely. It is Question 12 on the INS form, 
and Question 12 says, ``Have you ever registered to vote? Have 
you ever voted?'' And what is happening that we are finding 
through public records requests is that those individuals who 
were not citizens who got caught up in this broken motor-voter 
system are jeopardizing their immigration status.
    Now, you would think everybody would care about that. But 
as we have seen today, that is not the case. What is happening 
is they are jeopardizing their immigration status, so both 
noncitizens are getting on the rolls, they are voting. We have 
been harvesting sort of their ``please take me off the rolls,'' 
their self-deportation from the voter rolls, if you will, where 
they thought they were registering for something else. They 
didn't understand the form. It wasn't in the language in 
Allegheny County, Pennsylvania, that they spoke because it is 
not covered by 203. And so the system has flaws in it that we 
are attempting to catalogue and to fix. Occasionally, there is 
glitches on the way like relying on Virginia for, we would 
assume, not be removing citizens, but they are.
    Mr. Armstrong. And so my wife is not a citizen. She is a 
permanent resident alien, and she comes from Norway, and it is 
a little different situation. But in a State that doesn't have 
voter registration--and they have attempted to deal with this 
at the State legislature. Her ID looks identical to mine. I 
mean, it is absolutely--and there is no situation that would--I 
mean, it is absolutely an honor system, and we continue to work 
through it. And so obviously she is married to a politician, 
which we can judge her for that in her own right. But, I mean, 
we know the laws, and we know where it is at. But she could 
walk in and vote in North Dakota at any point in time she 
would, and the election people wouldn't know the difference. I 
mean, that is just--now, we are different. We are the only 
State in there without voter registration, so--but it really 
truly is an issue.
    And then I would just--I am going to end this, and I agree, 
we need to make it easier to--I am getting a bunch of calls on 
REAL ID in North Dakota right now because, as is all things, 
people wait until the absolute last minute. We need to make it 
easier for people in situations, whether they are Native 
Americans or elderly in general, to be able to prove their ID 
and work for it.
    And I would also just like to say regarding--I mean, there 
was a preliminary injunction issued in the North Dakota case. 
It was overturned by the Supreme--or the Eighth Circuit. The 
Supreme Court chose not to take it up, and there was a 
mechanism and timing as to when that decision came out that 
made it incredibly problematic in the 2018 election. And 
regardless of policy or anything like that, I believe this, 
that the organizations who went to work and activated on the 
Native American reservations in North Dakota to ensure that 
people did get IDs and vote because they turned out--regardless 
of how difficult it was, they turned out in absolute record 
numbers in 2018, and it shouldn't be that hard to get an ID, 
and we should continue that, particularly with older people. 
And the birth certificate thing is a real issue, and it is a 
real issue in rural America, and it is exponentially--I mean, 
it is magnified on the Native American reservations, and I 
recognize that. But they should be commended--and I know this 
full well. Most of them didn't vote for me, and they should be 
absolutely commended for what they got done in a short period 
of time.
    So, with that, I yield back.
    Mr. Cohen. Thank you. Mr. Armstrong, if you don't mind, how 
do you do it in North Dakota? If you don't have voter 
registration, is everybody just on the rolls? How do you do it?
    Mr. Armstrong. Yes, sir, and we have a 30-day residency 
requirement, and all you have to do is show an ID, which is--I 
mean, a point of consternation, but there is no voter 
registration. You have to have a valid ID and proof of address.
    Mr. Cohen. And just for the record--and I think we should 
mention--I have had a lot of constituents be concerned that the 
new Government ID requirement is something to do with stopping 
people from having the right to vote. That is not at all true, 
is it?
    Mr. Armstrong. It is not true. We are running into a lot of 
problems. One, I think, in fairness, people wait until the last 
minute to go get their ID, and so there is long delays. I mean, 
they have had the opportunity to do it. And providing the 
documentation to get the REAL ID versus your regular driver's 
license--I think this is the same fairly across the country--is 
proving to be cumbersome.
    Mr. Cohen. Thank you. Is it the Lamoureux sisters that were 
the hockey stars?
    Mr. Armstrong. Yes.
    Mr. Cohen. They were in Memphis last week and represented 
North Dakota well.
    Mr. Armstrong. We are proud of them.
    Mr. Cohen. I am sure you are. Thank you.
    To the panel, does anybody on the panel think that the new 
Federal ID law about having--has anything to do with stopping 
people from voting?
    [No response.]
    Mr. Cohen. Good. Ms. Dean, you are recognized.
    Ms. Dean. Thank you, Mr. Chairman.
    You know, we are in awfully anxious times in our democracy, 
and so when I have that fear overcome me, I try to remind 
myself of a quote that I like from Thomas Jefferson. He said, 
``Should things go wrong at any time, the people will set them 
to rights by the peaceable exercise of their elective rights.'' 
So that gives me some consolation, except when we have 
conversations like we are having today and when we have a 
history of what we have seen today. How can the people truly 
right a wrong when their elective rights referred to by Thomas 
Jefferson are attacked, are weakened, are thwarted in many, 
many ways?
    Ms. Gupta, I would like to start with you. You mentioned 
several common tactics we have seen since the Shelby decision: 
barriers to voter registration, cuts to early voting, purges of 
voter rolls, strict photo identification, last-minute polling 
place closures or consolidations. Can you tell us of the 
frequency of some of these implementations? I am thinking if we 
reflect back on 2018 and also your concerns for 2020.
    Ms. Gupta. Yes, thank you for the question. We just today 
actually released a report, the Leadership Conference Education 
Fund, about the number of poll closures around the country 
since the Shelby County decision and found that 1,688 polling 
place closures happened since the Shelby County decision in 
jurisdictions that were previously covered by Section 5 of the 
Voting Rights Act. These are the kinds of hyper-local changes 
that would have required preclearance by the Justice 
Department, not because they were automatically going to be 
deemed as racially discriminatory but actually to allow for 
analysis and evaluation of whether it would create a disparate 
impact on voters of color or language minorities, but also to 
provide notice, advanced notice to voters about where these 
places have been moved.
    There is an abundance of evidence through litigation that 
my colleagues have mentioned that has taken years to really 
kind of uncover around discriminatory practices in voting and 
election administration that add to the current record of 
contemporary, ongoing, systemic racial discrimination in 
voting.
    Ms. Dean. Thank you for that.
    Ms. Landreth, in addition to polling--poll closures, what 
are some of the other voting problems that we have seen across 
the country that H.R. 4 would address?
    Ms. Landreth. Well, I think there is a couple of things. 
One is that H.R. 4, if I am not wrong--and it depends on how 
you count jurisdictions--it would end up protecting over 20 
percent of tribes in the United States from retrogressive 
polling practices because it would cover, I believe--and, 
again, we would have to check this, and it depends on how you 
count--California, which has over 100 tribes; New York, which 
has eight tribes; and then the Mississippi Choctaw would also 
be protected. They have ten also sub-jurisdictions covered for 
Section 203. So it would prevent retrogression for fully 20 
percent of Native American tribes.
    But the known practices piece would prevent the vote 
dilution that we commonly see in Indian Country where they 
switch these jurisdictions to at-large in order to make sure 
that you never get a seat that represents you and your 
community, even if it is sizable, and particularly the polling 
place closures, because that is one of the things that we find 
in Indian Country that is very unique.
    I am not sure that anyone here is familiar with this, but a 
lot of tribes are told if they want a polling place, they have 
to pay for it. I would like you to try that. I would like you 
to go to constituents in Atlanta or New York or anywhere in 
California and tell them, ``If you want a polling place, you 
need to give us $25,000 for it.''
    Ms. Dean. And who is saying that? Who is suggesting that 
they would have to pay for it?
    Ms. Landreth. There are several well-known cases that I 
believe--and subject to your perjury limitation, let me say I 
am not 100 percent sure, so I am going to have to correct this 
on the record, but these were cases, I believe, in Blaine 
County, Montana, as one example; and the other would be South 
Dakota cases where it had become commonplace to say, ``We do 
not have enough money for elections.'' These cases may have 
been resolved now, but this is an issue where, if you go to a 
jurisdiction and say, ``Our tribe wants a polling place on 
tribal lands,'' mostly you will be refused----
    Ms. Dean. Okay.
    Ms. Landreth [continuing]. On the grounds of cost. And then 
they will say, ``You pay for it. You provide the poll workers, 
you give the space, and maybe we will let you have one.''
    Ms. Dean. That is stunning.
    Ms. Landreth. So protecting that would be hugely valuable.
    Ms. Dean. That is incredibly un-American.
    Mr. Johnson, I just have a few seconds left. I am a former 
member of the Pennsylvania Legislature. I came in in a special 
election in 2012, right after voter ID. I saw personally the 
consequences going around my district and trying to help 
elderly people, young people, the barrier of birth certificates 
and all of the rest. So could you please explain how photo 
identification requirements bar Americans from exercising their 
rights to vote?
    Mr. Johnson. Sure, in negative 10 seconds.
    Ms. Dean. Sorry.
    Mr. Johnson. We have never found an individual seeking to 
vote under an assumed name. It creates an additional barrier 
that is not necessary, particularly for Southern rural 
precincts. Everyone knows each other. There are very few cases 
of someone walking to the polling place and the poll workers 
don't know the individuals, on top of the fact that there has 
not been any true evidence of someone trying to voter under an 
assumed name. So you create an additional barrier or you create 
a chilling effect to voting.
    Ms. Dean. That is right. Thank you very much. I see my time 
has expired. Thank you very much.
    Mr. Cohen. Thank you, Ms. Dean.
    And now, patiently having waited, Ms. Garcia.
    Ms. Garcia. Saving the best for last, Mr. Chairman. Thank 
you.
    First, let me begin by responding to something that my 
colleague from Texas said, disparaging my home county where I 
was born, Dual County, because he seemed to suggest that there 
was voter fraud there for many, many years and it is still 
going on, and that is simply not true. South Texas, including 
my birth county and my home county of Jim Wells, have made 
great efforts to clean all that up. And I have not heard, seen, 
or been witness to any voter fraud in either one of those two 
counties--my birth county or my home county.
    Of course, I am elected from Harris County, and I am not 
going to belabor the point other than to say that I believe 
that the witness has sort of mischaracterized a bit of his 
lawsuit against Harris County and access to some of the 
materials that he was after. But I do not want to get into that 
because, as Lyndon Johnson said, there is no more important 
right under the Constitution than voting, because who you vote 
for then determines the freedoms and the liberties that you get 
from all the other constitutional rights.
    So, Mr. Chairman, thank you for bringing us together to 
talk about this topic, and as one who has been the recipient of 
a purging letter, all this is very personal to me. I have been 
turned away from the polls. I have been--gone to a poll that 
wasn't there. I have been to a poll where machines weren't 
ready. And you can look at me. You know, I don't look Mexican, 
so you know it is based on the surname, Garcia, the data that 
you are after, sir. So please know that I take this not only as 
an advocate for my district, but for myself and my family and 
my friends.
    So I wanted to start with you, Ms. Perez, on this purging 
letter issue. What really can we do to stop these letters from 
going--almost threatening that if you don't do something, your 
name is going to get purged? Or how do we stop this flawed data 
that is sometimes given, as it was in the Texas case that you 
cited, where the information was just wrong and all those 
people who were supposedly thousands of people who were 
registered or maybe registering was just not true? So how do 
we--what can we do from here in Washington in our Federal laws 
to make sure those things just stop?
    Ms. Perez. Thank you, Member Garcia. I am also from the 
great State of Texas, and I think Texas is a ripe example of 
the need for a robust preclearance regime because Texas is one 
of these jurisdictions that keep popping up in terms of 
election problems. In addition to making it harder for groups 
to go out and register people to vote, they have a strict photo 
ID law that many of us had to spend 5 years challenging. There 
is aggressive prosecutions of folks who run afoul of some of 
the election laws. There is attempts at voter purges. It seems 
like at every step----
    Ms. Dean. But what do we do? The question is----
    Ms. Perez. What we can do with purges is ensure that there 
is a strong preclearance regime that would require that changes 
to the preclearance process get precleared so that it didn't 
have a discriminatory impact or discriminatory effect. We can 
have stricter compliance with the National Voter Registration 
Act. We can have greater public education to ensure people to 
check their voter registration status. And we can inform 
election administrators that when they receive threatening 
emails from groups who are trying to pressure them into 
aggressively purging the voter rolls, that they know that the 
Federal Government is there to protect them.
    Ms. Dean. Thank you.
    Mr. Ho, on some of the testimony that you presented, I know 
that you talked a lot about some of the cases and the cost of 
litigation. You quoted 5 million. Is that an average for ACLU? 
And, also, is there anything else that you wanted to respond 
to, any of the testimony from the gentleman to your left?
    Mr. Ho. Sure. Five million was in reference to the court-
ordered award of attorneys' fees and costs in the North 
Carolina litigation that you have heard a lot about today. It 
was certainly, I think, a more expensive and time-consuming 
case than is average. So I don't want the committee to think 
that that is the average Section 2 case. It is certainly on the 
more expensive side.
    I just want to say one thing and make the record ----
    Ms. Dean. Do you have an average?
    Mr. Ho. I don't.
    Ms. Dean. You don't? Okay.
    Mr. Ho. I think the record should be clear that it is very 
remarkable, I think, that Mr. Adams is in here today claiming 
credit for protecting voters in Virginia. His organization 
published a report titled ``Alien Invasion'' with a UFO on the 
cover, hyping a supposed ``cover-up of noncitizen 
registration'' in Virginia. The report published the names and 
contact information of voters who were United States citizens, 
including a Los Angeles-born employee of the USCIS named Luis, 
claiming that they were noncitizens and accusing them of 
committing felonies, despite warnings----
    Mr. Adams. Not true.
    Mr. Ho [continuing]. From Government officials that the 
list he used contained false positives.
    Mr. Adams. It is not true.
    Mr. Ho. He was sued for defamation by those voters, and it 
takes, I think, extraordinary chutzpah for him to come in here 
and claim that he protected United States citizens.
    Ms. Dean. Thank you clearing the record. I yield back.
    Mr. Cohen. Thank you, Ms. Garcia.
    I appreciate all the witnesses today and all of the 
testimony. I think it is a valuable hearing on the importance 
of the voting rights bill we have before us to set up a new 
standard in Section 4 and reactivate--restore Section 5 of the 
Voting Rights Act. So I thank each of you.
    This concludes today's hearing. I want to thank all of our 
witnesses for appearing today. And I want to thank the minority 
for educating me about Guam. That is something I didn't know 
about. Very important.
    Without objection, all members have 5 legislative days to 
submit additional written questions for the witnesses or 
additional materials for the record, and the hearing is 
adjourned.
    [Whereupon, at 11:56 a.m., the subcommittee was adjourned.]
      

                                APPENDIX

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Items for the record submitted by Myrna Perez: https://
docs.house.gov/meetings/JU/JU10/20190910/109895/HHRG-116-JU10-
20190910-SD003.pdf.
    Arnold Davis v. Guam Opinion: https://docs.house.gov/
meetings/JU/JU10/20190910/109895/HHRG-116-JU10-20190910-
SD001.pdf.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                  [all]

</pre></body></html>
